WAIVER

Supreme Court of the United States

No. 20-5968
Rochelle Driessen v. Miami-Dade County, Florida, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
O Please enter my appearance as Counsel of Record for all respondents.

1 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

The School Board of Miami-Dade County, Florida

 

m™ Iamamember of the Bar of the Supreme Court of the United States.

Lam not presently a member of the Bar of this Court, Should a response be requested,
the response will be filed by a Bar member.

 

 

Signature
Date: Ocfi he 2) Lore
(Type or print) Name. Walter J. Harvey

 

® Mr. O Ms. O Mrs. O Miss
Firm School Board Attorney's Office, The School Board of Miami-Dade County, Florida

Address___ 1450 NE 2nd Avenue

City & State__ Miami, Florida Zip _ 38132

 

Phone __ 305-995-1304

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAMK(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Rochelle Driessen, pro se

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.goy. Have the Supreme Court docket number available.
